No.

IN THE
SUPREME COURT OF THE UNITED STATES

GENARO EDGAR ESPINOSA DORANTES - PETITIONER
Vs.
KEVIN MYERS. Acting Warden - RESPONDENT

PROOF OF SERVICE
I, Genaro Edgar Espinosa Dorantes, do swear or declare that I have
served a true and correct copy of the enclosed Motion for Leave to Proceed In
Forma Pauperis and Petition For Writ of Certiorari upon the parties, or their
counsel, by placing same in the United States Mail, with sufficient postage
thereon, and addressed as follows:
Zachary L. Barker
Assistant Attorney General
Federal Habeas Corpus Division
P. O. Box 20207
Nashville, Tennessee 37202
On this

day of

—. 20.
c/

Gf&ao,to fAhfl*

o5°- P orfl/UfeJ

Genaro Edgar Espinosa Dorantes
# 420728
T.C.I.X.
1499 R.W. Moore Memorial Hwy.
P. O. Box 4050
Only, Tennessee 37140-4050

RECEIVED
Aug 2 6 2020
■Supreme"

CERTIFICATE OF SERVICE
I hereby certify that I have served a true and exact copy of the
foregoing upon opposing counsel by placing same in the United States Mail,
with sufficient postage thereon, and addressed as follows:
Zachary L. Barker
Assistant Attorney General
Federal Habeas Corpus Division
P. 0. Box 20207
Nashville, Tennessee 37202
On this the /£3^1iav of

/?k.^^.4

;, 2(U^.

Ccnaro fASW S-Sp/ncS*
Genaro Edgar Espinosa Dorantes

35

No.

IN THE
SUPREME COURT OF THE UNITED STATES

GENARO EDGAR ESPINOSA DORANTES - PETITIONER
Vs.
KEVIN MYERS. Acting Warden - RESPONDENT

CERTIFICATE OF MAILING
I, Genaro Edgar Espinosa Dorantes, do swear or declare that I
have submitted the enclosed Motion for Leave to Proceed In Forma
Pauperis and Petition For Writ of Certiorari for filing with this Court
by placing same in the hands of the proper institutional authorities for
mailing, with sufficient postage thereon, on this the

5?

day of

, 20

£f/9/)r

^XPi/tlc'XD

/? orrtAf-J-CS

Genaro Edgar Espinosa Dorantes
# 420728
T.C.I.X.
1499 RW. Moore Memorial Hwy.
P. 0. Box 4050
Only, Tennessee 37140-4050

